                                  EVALUATION




 CENTRAL VALLEY PROJECT,
 CALIFORNIA: REPAYMENT STATUS
 AND PAYOFF




Report No.: WR-EV-BOR-0003-2012      March 2013
                 OFFICE OF
                 INSPECTOR GENERAL
                 U.S.DEPARTMENT OF THE INTERIOR

                                                                                MAR 2 '6 2013
Memorandum

To:               Michael L. Connor
                  Commissioner, Bureau of Reclamation
           /{nrJi. Mt   /t ~{(A
From:      2)\llj"'Mary'\i. Ktndall
                   Deputy Inspector General

Subject:          Final Evaluation Report- Central Valley Project, California: Repayment Status
                  and Payoff
                  Report No. WR-EV-BOR-0003-2012

     This memorandum transmits our evaluation report of the Bureau of Reclamation's
(USBR) ability to recover Federal investments in the Central Valley Project (CVP) by 2030.

         Because USBR's ratesetting policies do not ensure that an appropriate share of capital
costs and funding deficits are repaid annually, it is not making steady progress toward recovering
Federal investments in the CVP. With 18 years left to fulfill Congress' repayment mandate by
2030, USBR has an opportunity to address the repayment uncertainty inherent in its current
ratesetting policies. We include two recommendations in our report that, if implemented, will
help to improve USBR's ability to recover the CVP investments.

       Based on the February 28, 2013 response from USBR to the draft report, we consider
both recommendations resolved but not implemented. We will refer these recommendations to
the Assistant Secretary for Policy, Management and Budget to track implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

     A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please do not hesitate to contact me at 202-208-5745.




                                 Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
Findings................................................................................................................... 4
   Current Ratesetting Process Contributes to Repayment Uncertainty.................. 4
      Estimating Future Water Deliveries ................................................................ 4
      Priorities for Using Annual Water Revenues .................................................. 4
      No Fixed Repayment Amount ......................................................................... 5
   Contract Provisions Limit Repayment ................................................................ 5
   Impact of Ratesetting Weaknesses ...................................................................... 6
      Repayment of Irrigation Investment ................................................................ 6
      Repayment of M&I O&M Deficit ................................................................... 7
Conclusion and Recommendations ......................................................................... 9
   Conclusion........................................................................................................... 9
   Recommendations ............................................................................................... 9
Appendix 1: Scope and Methodology................................................................... 11
   Scope ................................................................................................................. 11
   Methodology ..................................................................................................... 11
Appendix 2: Prior Audit Coverage ....................................................................... 12
Appendix 3: USBR Response ............................................................................... 13
Appendix 4: Status of Recommendations ............................................................. 16
Results in Brief
In 1937, the Bureau of Reclamation (USBR) began construction of the largest
water supply project in the United States: the Central Valley Project (CVP) in the
State of California. To recover Federal investments in the CVP facilities, USBR
established contracts that guaranteed contractors a fixed annual repayment rate for
40 years. The fixed water rates specified in these contracts, however, were
insufficient to recover the Federal investment in the CVP. As a result, in the first
40 years of the CVP operation, little progress was made toward repayment of the
Federal investments. In 1986, Congress passed legislation addressing operational
repayment deficits and required repayment of the Federal investment in the CVP
by 2030. We conducted this evaluation to determine whether the Federal
Government is making steady repayment progress and is on track to recoup its
investments in the CVP by the legally established deadline of 2030.

We found that USBR’s water ratesetting policies do not ensure that an appropriate
share of capital costs and prior-year funding deficits are repaid annually. Water
deliveries to the CVP contractors have been highly variable from year to year.
When actual water deliveries are less than projected deliveries, revenues are
insufficient to recover the Federal investment in the project. When actual water
deliveries exceed projected deliveries, however, existing contract provisions
stipulate that excess revenues collected by USBR must be refunded to the
contractors. As a result, USBR has not demonstrated steady progress toward
recovery of Federal investments in the CVP. With 18 years left to fulfill
Congress’ repayment mandate of 2030, USBR has an opportunity to address its
current ratesetting policies that are dependent on annual water deliveries.

Because of the uncertainty of annual water deliveries and the potential instability
of repayment revenues, repayment shortfalls could become significant enough to
require political intervention. If this repayment deadline is not met, USBR will
not have met its legal mandate and once again will have to put this issue before
Congress.




                                                                                      1
Introduction
Objective
Our objective was to determine whether the Federal Government is making steady
repayment progress and is on track to recoup its investments in the Bureau of
Reclamation’s (USBR) Central Valley Project (CVP) by the legally established
deadline of 2030.

Background
USBR began construction of the CVP in California in October 1937. It is
currently the largest water supply project in the United States, providing water to
more than 3 million acres of farmland, which produce crops worth $3 billion a
year. In addition, the CVP supplies water to nearly 1 million households each
year. Power generation facilities constructed as a part of the CVP provide power
equivalent to the annual energy needs of 650,000 Californians. As of 2011, the
total reimbursable Federal investment in CVP facilities providing water for
irrigation and municipal and industrial (M&I) purposes was $1.3 billion.

Reclamation Law 1 requires that contractors, who benefit from the project, repay
the Federal investment in irrigation and M&I facilities. To secure repayment of
the Federal investment, USBR entered into water service contracts that
guaranteed contractors fixed water rates for 40-year terms. The intent of the
contracts was for these rates to repay construction costs over the 40-year period.
Reclamation Law requires USBR to establish water rates that produce revenue at
least sufficient to cover annual operations and maintenance (O&M) costs and the
appropriate share of fixed (capital) costs of the project. As time went on, however,
annual O&M costs increased to the point where they exceeded revenues generated
by the fixed water rates established in the water service contracts. By the 1970s,
contractors had repaid little of the original costs to construct the CVP and owed
additional O&M costs financed by the Federal Government.

In 1986, Congress enacted the Coordinated Operations Act of 1986 to address the
CVP repayment issues. 2 The law established 2030 as a firm repayment deadline
for contractors to repay all construction costs and O&M deficits existing as of
1986. 3 In addition, it required contracts to include provisions for adjusting rates if
it is found that the rate in effect may not be adequate to recover Federal
investments. USBR revised its water ratesetting policies 4 to address previous
repayment deficiencies and the requirements of the Act. 5 Under its current
1
  Reclamation Law is the term used to refer to the total body of public law governing the reclamation
program, beginning with the Reclamation Act of 1902 and including all laws amending and supplementing
the Act.
2
  Coordinated Operations Act of 1986, Pub. L. No. 99-546, 100 Stat. 3050-56 (1986).
3
  Id.
4
  “The CVP Irrigation Ratesetting Document” was approved in 1988 and the CVP “Interim Ratesetting
Policy, Municipal, and Industrial Water” was approved in 1995.
5
  Coordinated Operations Act of 1986, Pub. L. No. 99-546, 100 Stat. 3050-56 (1986).

                                                                                                        2
ratesetting policy, USBR calculates a new water rate each year for each
contractor. Each contractor’s annual water rate includes three primary component
rates to—

    •    recover the estimated annual CVP O&M cost allocated to the contractor;
    •    recover the unpaid balance of the contractor’s O&M deficit over the
         remaining repayment period; and
    •    repay the capital costs incurred by the contractor over the remaining
         repayment period.

USBR calculates these component rates by dividing the estimated annual O&M
cost or the proportional share of Federal investment owed by the amount of water
that USBR anticipates delivering in the upcoming year. USBR calculates some of
the rates based on actual cost data from 2 years earlier because the CVP water-
rate development process takes an entire year. For example, USBR calculated the
2013 CVP capital water rates based on the 2011 CVP financial data.

USBR’s ratesetting policy also dictates how it will use annual water revenues.
Revenues are used to pay O&M costs first, interest expenses second, and interest-
bearing O&M deficits incurred since 1986 third. Non-interest-bearing O&M
deficits accumulated prior to 1986 and the capital investment component are
repaid last.

In August 2004, we issued a report on the CVP contract renewal process (see
Appendix 2). 6 In the report, we discussed concerns that contractors might not
repay Federal investments in the CVP by 2030 due to understated water rates and
uncertain water availability. We noted that these factors could result in expanding
repayment relief to irrigation contractors and significant, unplanned increases in
the CVP power rates. The report suggested that USBR—

    •    formally revise water ratesetting bases;
    •    annually estimate total aid to irrigation requirements; and
    •    provide the estimate to the Federal agency responsible for setting power
         rates.

In response to the report, USBR made some changes to its basis for computing
water rates. Our evaluation concluded, however, that USBR’s rate calculation
changes were not sufficient to eliminate understated water rates and continued
uncertainty about CVP repayment.




6
 Office of Inspector General, U.S. Department of the Interior, No. W-IN-BOR-0016-2004, “Central Valley
Project Contract Renewal Process,” (August 2004).


                                                                                                         3
Findings
USBR is not making steady progress toward recovery of Federal investments in
the CVP. The current CVP ratesetting policies and water projection methods do
not ensure that sufficient revenue is available each year to recover annual O&M
costs and to repay an appropriate share of the remaining Federal investment in the
project. In addition, current CVP water service contracts include a provision that
prevents USBR from using excess annual revenues to repay the Federal
investment.

Current Ratesetting Process Contributes to
Repayment Uncertainty
Estimating Future Water Deliveries
USBR calculates the CVP contractors’ water rates using estimates of the amount
of water it expects to deliver during the coming year. The water that is actually
available for delivery to contractors, however, depends on the amount of rain and
snow that falls after water rates are set and can be highly variable from year to
year. When the actual amount of water delivered is less than the estimated amount
that USBR used to calculate the annual water rates, revenue shortfalls occur,
which cause shortages in repaying capital costs and O&M deficits.

In addition, USBR compounds the uncertainty of the water ratesetting process by
using more than one method to estimate the coming year’s water deliveries.
USBR calculates O&M component rates using either the average of the previous
5 years of water deliveries or the contract maximum deliveries, whichever amount
is lesser. Capital repayment and O&M deficit component rates, on the other hand,
are calculated based on the average of water deliveries since 1995. The
differences in these estimates are significant. For example, in developing the 2012
rate for irrigation water delivered to the Westlands Water District via the San Luis
Canal, USBR used estimated water deliveries of 594,233 acre-feet to calculate the
O&M component and 776,389 acre-feet to calculate the capital repayment
component. Had USBR used the 5-year average to calculate Westlands’ capital
component, that rate would have been $7.44 per acre-foot higher (30 percent) than
the rate actually charged, which was $24.25.

Priorities for Using Annual Water Revenues
USBR’s ratesetting policy puts the least priority on capital repayment for
irrigation revenue and O&M deficit repayment for M&I revenues. When water
deliveries do not meet projections for the year, revenues are used to pay other
expenses first. If there are any revenues remaining, then USBR applies them
toward capital repayment and O&M deficit repayment. Thus, in water-short years,
USBR does not generate sufficient revenues to pay for capital repayment and
O&M deficits. Those revenues generated are used to pay other expenses first,
which creates a larger than anticipated shortfall.


                                                                                  4
No Fixed Repayment Amount
USBR’s current ratesetting policies for the CVP water service contracts do not
include a fixed repayment amount to ensure that a portion of capital costs and
O&M deficits are paid each year. Unlike fixed water rates, which resulted in
insufficient repayment revenues and subsequent congressional action in 1986, a
fixed repayment amount, much like a conventional mortgage, establishes a
repayment schedule that assures repayment within a prescribed time. While the
use of a fixed payment component is not typical in USBR water service contracts,
fixed repayment amounts can stabilize water revenues and ensure steady CVP
repayment even when annual water deliveries fluctuate wildly. 7

USBR already uses a fixed repayment amount to ensure timely repayment of one
part of the CVP. The San Felipe out-of-basin facilities supply water to two
contractors serving the Santa Clara Valley and San Benito County in California.
USBR incorporated fixed repayment schedules in the San Felipe out-of-basin
water service contracts to ensure that all costs associated with these facilities are
repaid by the established deadline.

Contract Provisions Limit Repayment
The language of current CVP water service contracts also limits and adversely
impacts the repayment of CVP capital costs and O&M deficits. In reviewing
USBR’s water service contract with the Del Puerto Water District, we noted that
Article 10 of the contract states:

         The amount of any overpayment by the Contractor of the
         Contractor’s O&M, capital, and deficit (if any) obligations for the
         year shall be applied first to any current liabilities of the Contractor
         arising out of this Contract then due and payable. Overpayments of
         more than $1,000 shall be refunded at the Contractor’s request.

According to USBR, this negotiated contract language was included in all of the
long-term CVP renewal contracts that USBR executed in 2005, as well as interim
contracts that were negotiated with Westlands Water District and a number of
other contractors. USBR officials told us that reopening negotiations on CVP
water service contracts would be very difficult unless required by law, policy, or
some other compelling reason.

USBR officials believe that, absent the contract language in Article 10, the CVP
ratesetting methodology would be sufficient to recover CVP construction costs
because overpayments in high water years would offset underpayments in low
water years. These officials acknowledged that the refund language of Article 10


7
 For example, during the 10-year period ending with water year 2010, irrigation water delivered to the
Westlands Water District via the San Luis Canal varied from a high of 1,066,037 acre-feet in 2006 to a low of
229,137 acre-feet in 2009.


                                                                                                           5
defeats the design of the CVP ratesetting methodology and adversely impacts
repayment of CVP construction costs.

Impact of Ratesetting Weaknesses
Repayment of Irrigation Investment
We determined that if recent CVP water delivery trends continue, repayment of
the capital investment in the CVP irrigation facilities could be short by between
$330 and $390 million by 2030, as illustrated in Figure 1.

To identify why repayment progress was not satisfactory, we reviewed water rate
calculations and payment information for four irrigation contractors. We
determined that for the 3-year period from 2008 to 2010, actual water delivered to
these contractors was only 41 percent of estimated water deliveries used to
calculate their contract water rate. The variance in water deliveries resulted in a
$45 million shortfall in the contractors’ repayment of capital costs that USBR
must recover in future years through rate increases. In the case of one contractor,
we estimated that by 2030, their CVP water rate could more than double if current
trends continue.




                                                                                    6
     Projection of Unpaid Capital Investment in Irrigation Facilities




Figure 1. This figure projects the amount of Federal investments that will be left unpaid by
2030. The total amount unpaid with additional capital relief is projected to be approximately
$330 million. Without capital relief, the amount left unpaid is projected to be nearly $390
million.
— The total unpaid with additional capital relief.
— The total unpaid with no additional capital relief.

Continued deferral of capital cost repayment by irrigation contractors could cause
future water rates to exceed contractors’ ability to pay. Provisions of Reclamation
Law permit irrigation contractors to apply for relief from their capital repayment
obligation based upon an economic analysis showing that they cannot meet that
obligation. In this case, an irrigation contractor is charged the lesser of the cost of
service or the irrigation contractor’s payment capacity. At a minimum, the water
rate must cover O&M costs. The difference between the cost-of-service rate and
the irrigation contractor’s ability to pay is shifted to the CVP power users for
repayment through the U.S. Department of Energy. Thus, power users will pay
any costs above the irrigation contractor’s ability to pay.

Repayment of M&I O&M Deficit
We also determined that if the recent CVP water delivery trends continue,
repayment of the O&M deficits accumulated by M&I contractors could be short
by approximately $55 million by 2030, as illustrated in Figure 2.




                                                                                            7
Figure 2. This figure shows the potential deficit growing over the next 18 years, as M&I
contractors continue to accrue O&M costs and fall short of payments. This chart does not
include repayment for San Felipe’s facilities, as it is on track to repay the Federal investment.

Our review of water rate calculations and payment information for M&I
contractors determined that for the 3-year period from 2008 to 2010, actual water
deliveries to these contractors were only 63 percent of estimate. The variance in
water deliveries resulted in a $7 million shortfall in the contractors’ repayment of
accumulated O&M deficits. As with the CVP irrigation facilities, USBR must
now recover this shortfall in the remaining 18 years through water rate increases.
Unlike with irrigation repayment shortfalls, however, M&I contractors are not
eligible for repayment assistance from power revenues. O&M deficits and all rate
increases are the responsibility of the M&I contractors. Much like irrigation
capital costs, if these trends continue, M&I water rates will continue to rise along
with the possibility that not all costs will be repaid by 2030.




                                                                                                8
Conclusion and Recommendations
Conclusion
USBR has 18 years remaining to ensure that the repayment requirement for the
CVP is met. The longer USBR waits, the more significant the impact will become
as the 2030 deadline approaches. This could cause significant, if not
unsustainable, rate increases to water contractors. Rate increases create the
potential for rates to exceed irrigation contractors’ ability to pay and shift the
repayment requirement to power users. Rate increases could also lead to water
contractors asking Congress to extend the repayment deadline beyond 2030 or
provide additional repayment relief. As the 2030 repayment deadline approaches,
USBR has an opportunity to act before the impacts become even more significant.

USBR has revised the CVP ratesetting policies to deal with repayment shortfalls.
Its revised policies are not entirely effective, however, because they do not ensure
that an appropriate share of capital costs and accumulated O&M deficits are
repaid each year. In addition, the terms of existing CVP water service contracts
exacerbate the problem by requiring that USBR refund any excess revenues to
contractors rather than applying these revenues to reduce the unpaid capital costs
and O&M deficits. We believe that the most responsible approach would be to
deal with the issue now. Allowing continued repayment uncertainty—or worse,
missing the repayment deadline set by Congress—would mean that USBR has
failed to effectively implement the Coordinated Operations Act of 1986 8 and
fulfill its responsibility to obtain required, complete project repayment by 2030.

Recommendations
We recommend that USBR:

       1. Evaluate additional changes in the CVP ratesetting policies and implement
          actions that will ensure stable and predictable repayment of the entire
          Federal investment in the CVP between now and 2030.

            Agency Response:

                     Reclamation concurs that repayment contracts provide a
                     more reliable means of repayment of capital costs. The
                     update of the Central Valley Project (CVP) cost allocation,
                     scheduled for completion in 2016, will provide an
                     opportunity to convert to repayment contracts at the request
                     of the contractor. However, because Reclamation cannot
                     unilaterally amend a contract, each contractor must
                     affirmatively request that its 9(e) or 9(c)(2) water service
                     contract be converted to a 9(d) or 9(c)(1) repayment

8
    Coordinated Operations Act of 1986, Pub. L. No. 99-546, 100 Stat. 3050-56 (1986).

                                                                                        9
           contract pursuant to the Reclamation Project Act of 1939.
           The option to convert is contained in the current water
           service contracts. In addition, the Region will further
           analyze the rate of repayment and consider various factors
           that have impacted repayment. These factors include
           current operations criteria, hydrology impacts, and the
           repayment of Friant construction costs. If the rates appear
           to be too low then the rate methodology will be adjusted to
           promote recovery by 2030.

           Responsible Official: David G. Murillo, Mid-Pacific Regional
           Director.

           Target Implementation Date: The estimated completion for the
           analysis is December 31, 2013.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 4). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget.

2. Renegotiate the terms of irrigation water service contracts to eliminate the
   refund language of Article 10 at the earliest opportunity.

   Agency Response:

           Reclamation agrees the CVP contract Article 10 has
           impacted repayment. Renegotiation of this provision would
           be required and Reclamation will explore this option with
           our contractors. Reclamation will further analyze the costs
           and benefits associated with renegotiating the refund
           provision and determine whether to pursue this option.

           Responsible Official: David G. Murillo, Mid-Pacific
           Regional Director.

           Target Implementation Date: The estimated completion for
           the analysis is December 31, 2013.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 4). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget.




                                                                             10
Appendix 1: Scope and Methodology
Scope
Our scope included the Bureau of Reclamation (USBR), Central Valley Project
(CVP) water ratesetting process, associated ratesetting documents and
information.

We conducted our evaluation in accordance with the Quality Standards for
Inspections as put forth by the Council of Inspectors General on Integrity and
Efficiency. We believe that the work performed provides a reasonable basis for
our conclusions and recommendations.

Methodology
To accomplish our evaluation, we—

   •   reviewed applicable laws, rules and regulations, and USBR policies
       related to CVP repayment;
   •   interviewed USBR officials regarding CVP repayment policies and
       practices;
   •   analyzed recent trends in CVP water deliveries, revenues, and repayment;
   •   selected a small judgmental sample of CVP contractors for more detailed
       review, emphasizing contractors that received substantial annual water
       deliveries from the CVP and that had significant unpaid balances of both
       capital cost and operation and maintenance deficits; and
   •   reviewed the contracts, water rates, revenues, and repayment data for the
       Westlands Water District, the Del Puerto Water District, the East Bay
       Municipal Utility District, Colusa Water District, Kanawha Water District,
       and the Sacramento County Water Agency.




                                                                                 11
Appendix 2: Prior Audit Coverage
The Office of Inspector General issued an audit report in August 2004, titled
“Central Valley Project Contract Renewal Process, Bureau of Reclamation” (No.
W-IN-BOR-0016-2004), that addressed the ratesetting policies and repayment
status of USBR’s CVP. We discussed concerns that contractors might not repay
the Federal investments in the CVP by 2030 due to understated water rates and
uncertain water availability. We noted that these factors could result in expanding
repayment relief to irrigation contractors and significant, unplanned increases in
the CVP power rates. The report recommended that USBR—

   •   formally revise water ratesetting bases;
   •   annually estimate total aid to irrigation requirements; and
   •   provide the estimate to the Federal agency responsible for setting power
       rates to recover any unpaid capital investment in the CVP irrigation
       facilities.

To address the issue of understated water rates, USBR stated that it was planning
to change its basis for computing water rates beginning in 2005. Under that plan,
USBR would use the average of actual water deliveries for the last 5 years rather
than contract entitlements as the base for calculating annual water rates. USBR
was not planning to formally revise its ratesetting base or to alert the Federal
agency marketing CVP power about ballooning irrigation assistance needs.
USBR’s audit liaison coordinator told us that because the report contained
suggestions rather than recommendations, the report was not referred to the Office
of Financial Management for tracking of implementation.

During the course of this evaluation, we confirmed that USBR no longer uses
contract entitlements as the basis for calculating water rates. We found, however,
that USBR did not begin using the 5-year water delivery average to calculate all
components of annual CVP water rates as it had planned. Instead, USBR
calculates the capital repayment and O&M deficit components of CVP water rates
based on the average annual water delivered to contractors since 1995. We found
that USBR’s use of the longer-term average provides CVP contractors with lower
water rates and contributes to continued uncertainty about CVP repayment.




                                                                                  12
Appendix 3: USBR Response
USBR’s response to the draft follows on page 14.




                                                   13
                        United States Department of the Interior
                                      BUREAU OF RECLAMATION
                                         Washington, DC 20240

IN REPLY REFER TO:

   84-27400
   ADM-8 .00



                                            MEMORANDUM

   To :         Office oflnspector General
                 Attn: Assistant Inspector General for Audits, Inspections, and Evaluations

   Through: Anne J. Castle~-· fP" · ··A ~                 Jon     MAR     -~ 8   2013
            Assistant Seer~~~

   From:.     "~chael    L. Connor
      ~(;,\\t\~::~ Commissioner
                                      t::JO~
                                     QO- ~,. -
                                                                   trft
                                                                   r~;o   2 B,"Of'~
                                                                               , OJ

   Subject: The Bureau of Reclamation' s Response to the Office oflnspector General's (OIG)
            Draft Evaluation Report, Central Valley Repayment Status and Payoff, Report No.
                WR-EV -BOR-0003-20 12

  The OIG in its January 7, 2013, draft evaluation report, Central Valley Repayment Status and
  Payoff, requested that Reclamation inform the OIG of actions taken or planned to address the
  recommendations, as well as target dates and titles of the officials responsible for
  implementation. The requested information is attached.

   If you have any questions or require additional information, please contact Elizabeth
   Cordova-Harrison, Director, Management Services Office, at 303-445-2783.

  Attachment




                                                                                                 14
                                                                                      Attachment



                         The Bureau of Reclamation's Response to the
                   Office oflnspector General (OIG) Draft Evaluation Report
                          Central Valley Repayment Status and Payoff
                              Report No. WR-EV-BOR-0003-2012

                                         February 2013


Response to OIG Recommendations

Recommendation 1: Evaluate additional changes in the CVP ratesetting policies and implement
actions that will ensure stable and predictable repayment of the entire Federal investment in the
CVP between now and 2030.

       Reclamation's Response: Reclamation concurs that repayment contracts provide a more
       reliable means of repayment of capital costs. The update of the Central Valley Project
       (CVP) cost allocation, scheduled for completion in 2016, will provide an opportunity to
       convert to repayment contracts at the request of the contractor. However, because
       Reclamation cannot unilaterally amend a contract, each contractor must affirmatively
       request that its 9(e) or 9(c)(2) water service contract be converted to a 9(d) or 9(c)(1)
       repayment contract pursuant to the Reclamation Project Act of 1939. The option to
       convert is contained in the current water service contracts. In addition, the Region will
       further analyze the rate of repayment and consider various factors that have impacted
       repayment. These factors include current operations criteria, hydrology impacts, and the
       repayment of Friant construction costs. If the rates appear to be too low then the rate
       methodology will be adjusted to promote recovery by 2030.

       Responsible Official: David G. Murillo, Mid-Pacific Regional Director.

       Target Implementation Date: The estimated completion for the analysis is December 31,
       2013.

Recommendation 2: Renegotiate the terms of irrigation water service contracts to eliminate the
refund language of Article 10 at the earliest opportunity.

       Reclamation's Response: Reclamation agrees the CVP contract Article 10 has impacted
       repayment. Renegotiation of this provision would be required and Reclamation will
       explore this option with our contractors. Reclamation will further analyze the costs and
       benefits associated with renegotiating the refund provision and determine whether to
       pursue this option.

       Responsible Official: David G. Murillo, Mid-Pacific Regional Director.

       Target Implementation Date: The estimated completion for the analysis is December 31,
       2013.
                                                                                                  15
Appendix 4: Status of
Recommendations
 Recommendations           Status       Required Action
                                      No further response to
                                      OIG is required. The
                                      recommendations will
                   Resolved but not   be referred to the
1 and 2
                   implemented.       Assistant Secretary for
                                      Policy, Management and
                                      Budget for tracking of
                                      implementation.




                                                                16
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
